March 31, 2008

LYNN MALCOLM
VICE PRESIDENT, CONTROLLER

SUSAN M. BROWNELL
VICE PRESIDENT, SUPPLY MANAGEMENT

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

EDWARD L. BROWN
MANAGER, ST. LOUIS ACCOUNTING SERVICE CENTER

SUBJECT: Fiscal Year 2007 Postal Service Financial Statements Audit – St. Louis
         Information Technology and Accounting Service Center
         (Report Number FT-AR-08-010)

This report presents the results of our audit of selected financial activities and
accounting records at the U.S. Postal Service Information Technology and Accounting
Service Center (IT/ASC) in St. Louis, Missouri, for the fiscal year (FY) ended September
30, 2007 (Project Number 07BM002FT000). The Postal Reorganization Act of 1970, as
amended, requires annual audits of the Postal Service’s financial statements. We
conducted this audit in support of the independent public accounting firm’s overall audit
opinion on the Postal Service’s financial statements. Click here to go to Appendix A for
additional information about this audit.

OVERALL AUDIT CONCLUSION

•   Financial accounting policies and procedures provided for an adequate internal
    control structure and complied with accounting principles generally accepted in the
    U.S.
•   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
    account balances were stated in accordance with accounting principles generally
    accepted in the U.S.
•   General ledger account balances conformed with the general classification of
    accounts on a basis consistent with that of the previous year.
•   The Postal Service complied with laws and regulations that have a direct and
    material effect on the financial statements.
Fiscal Year 2007 Postal Service Financial Statements Audit –                                                FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


•   Adjustments identified were subsequently recorded. (Click here to go to Appendix
    B.)
•   A significant deficiency existed with international mail rates and accruals.1 (Click
    here to go to Appendix C and here to go to Appendix D).
•   Control deficiencies regarding highway extra trips, transportation systems’ access,
    eTravel claims, contract postal unit (CPU) payments, and property transactions were
    identified. These items were not significant to the financial statements and did not
    affect the overall adequacy of internal controls.

INTERNATIONAL MAIL RATES
Rates in the St. Louis International Accounting Branch (IAB) rate table were not always
accurate or supported.2 This occurred because the Postal Service did not have
complete policies and procedures to require employees to enter and update rates
timely, request necessary support for rates, or perform periodic reviews of the rates.
Further, headquarters personnel prepared rate documentation based on incorrect
terminal dues rates published by the Universal Postal Union (UPU) and distributed it to
the IAB to update rates in the international web-based application. When rates are not
accurate, the risk that financial information is misstated or billings are incorrect
increases.

As a result of our audit, the IAB corrected all rates and informally documented high-level
desk procedures over establishing rates, to include a review process. Click here to go
to Appendix C for our detailed analysis of this topic.

We recommend the Manager, St. Louis Accounting Service Center:

    1. Direct the Manager, International Accounting Branch, to implement and
       communicate complete written policies and procedures to require employees to
       enter and update rates timely, to obtain support for rates as necessary, and to
       periodically verify international rates.

Management’s Comments

Management agreed with the recommendation and has implemented procedures to
ensure all sequentially numbered UPU Circulars are received and acted upon. Also, for
bilateral agreements with no uniform rate change frequency, IAB personnel that detect

1
  Ernst and Young, LLP, the independent public accounting firm contracted to opine on the Postal Service’s financial
statements, also reported this as a significant deficiency in its Report on Internal Control Over Financial Reporting
and on Compliance and Other Matters Based on an Audit of Financial Statements Performed in Accordance with
Government Auditing Standards (dated November 14, 2007). A significant deficiency is a control deficiency or
combination of control deficiencies that adversely affects the entity’s ability to initiate, authorize, record, process, or
report financial data reliably in accordance with generally accepted accounting principles such that there is more than
a remote likelihood that a misstatement of the entity’s financial statements that is more than inconsequential will not
be prevented or detected by the entity’s internal control.
2
  International rate tables are updated via the international web-based application.




                                                             2
Fiscal Year 2007 Postal Service Financial Statements Audit –                                         FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


rate discrepancies during the billing and settlement processes will initiate inquiries to
International Postal Affairs at Postal Service Headquarters for updated rate information.
Further, management developed and implemented detailed desk procedures that
outline steps for entering and verifying new rates and require review and comparison of
the entered data to the source documentation. Finally, in addition to verification of rates
after entry, another review (annual, Parcel Post® quarterly, periodic) is conducted and
recorded. In subsequent separate correspondence, management advised these
procedures have been communicated and are currently in place. Click here to go to
Appendix L for management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the corrective actions should resolve
the issue.

PARCEL POST PAYABLE ACCRUAL

The Postal Service did not always use accurate volumes or rates to calculate monthly
accruals3 for the Parcel Post payable account. During the time of converting data to a
new web-based application, the Integrated Business System Solutions Center (IBSSC)
computer program extracted volume data from two data files, thereby duplicating
volumes. In addition, IAB personnel did not update rates in the Parcel Post rate table
for calendar year (CY) 2007 prior to the beginning of the CY. As a result, the IAB
overstated accruals for international Parcel Post outbound mail in the general ledger by
approximately $38.8 million.

As a result of our audit, the IAB updated the CY 2007 Parcel Post rates, recorded a
$28.3 million adjustment to correct the accrual balance in the general ledger (click here
to go to Appendix B), and implemented controls to review and verify monthly reports. In
addition, the IBSSC corrected the computer program used to generate the monthly
reports beginning April 2007. Because of corrective actions taken and the fact that we
already addressed timely rate updates in our previous recommendation, we are not
making a recommendation on this issue at this time. We will continue to monitor this
issue as part of our ongoing financial statement audit work. Click here to go to
Appendix D for our detailed analysis of this topic.

HIGHWAY TRANSPORTATION EXTRA TRIPS

Internal controls over payments made to highway transportation contractors for trips in
addition to those under contract (extra trips) need strengthening. The current payment
process does not include validation from the destination facility. Instead, the originating
facility initiates and maintains control of the authorization and certification forms and
3
 Accruals are items of expense that have been incurred during the period but have not yet been recorded or paid.
As such, they represent liabilities at the end of the period.




                                                         3
Fiscal Year 2007 Postal Service Financial Statements Audit –                     FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


submits the certification form directly to the St. Louis IT/ASC for further processing.
When validation from the destination facility is not part of the process, the Postal
Service increases its risk of unauthorized, duplicate or fraudulent payments for extra
trips. Click here to go to Appendix E for our detailed analysis of this topic.

We recommend the Vice President, Supply Management:

   2. Direct the Manager, Transportation Portfolio, to modify policies and procedures
      to include the destination facility validation in the highway extra trips payment
      process.

Management’s Comments

Management agreed with the intent of the recommendation. However, they advised
that even though the destination facility does not verify the form used for payment,
current controls require the destination facility to complete its portion of the form used
as support to prepare the payment form. Management advised they will review this
payment process as part of the Postal Service’s efforts to comply with the Sarbanes-
Oxley Act (SOX) and anticipate any related actions to be completed during FY 2009.

Evaluation of Management’s Comments

We acknowledge the facts management provided and agree that the destination facility
must complete its portion of the form used to prepare the payment form. However, the
current payment process allows the originating facility or administrative official to
prepare the summary payment form and does not include an independent validation
from the destination facility. Therefore, we continue to maintain that the information
provided to the St. Louis Accounting Service Center (ASC) as justification for payment
must also include a signature from appropriate personnel at the destination facility as
evidence the extra trip actually took place. When this control signature does not exist,
the Postal Service increases its risk that trips that did not take place or were not
authorized go undetected. Since management will review the process as part of SOX
efforts, we will pursue this issue as part of our future financial statement audit work.

TRANSPORTATION CONTRACT SUPPORT SYSTEM AND SURFACE AIR
MANAGEMENT SYSTEM ACCESS

Xxxxx Xxxxx Xxxxxxxxxxxx Xxxxxxx Xxxxxx Xxxx and Xxxxxxx Xxx Xxxx Xxxxxx Xxxxx
management did not update access to transportation systems in accordance with Postal
Service policy. This occurred because management did not perform a periodic review
of personnel needing access to the Transportation Contract Support System (TCSS) or
the Surface Air Management System (SAMS). As a result, the Postal Service could
jeopardize the integrity of highway contract route and air transportation payments. Click
here to go to Appendix F for our detailed analysis of this topic.




                                                   4
Fiscal Year 2007 Postal Service Financial Statements Audit –                    FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


As a result of our audit, management promptly revoked individuals’ access to these
systems. Therefore, we are not making a recommendation at this time. However, we
will continue to monitor this issue as part of our ongoing financial statement audit work.

TRAVEL EXPENSE CLAIMS

Postal Service employees did not always accurately complete their expense report in
the eTravel system. Specifically, we identified errors on nine of 80 approved expense
reports in eTravel. These errors occurred because employees did not always follow
Postal Service policy for travel expense reimbursements, and local officials approved
travel expense claims with errors. As a result, travel expense claim errors resulted in
incorrect reimbursements to employees and overstatement of the eTravel expense
account by $415. Click here to go to Appendix G for our detailed analysis of this topic.

As a result of our audit, management explained overpayments to approving officials and
requested they obtain reimbursement from affected employees. Since management
took corrective action and we did not expand our audit steps to determine whether the
errors were systemic, we are not making a recommendation at this time. However, we
will continue to monitor this issue as part of our ongoing financial statement audit work.

CONTRACT POSTAL UNITS PAYMENTS

The Postal Service did not always terminate CPU firm-fixed price contract payments
upon conversion to performance-based contracts. District retail offices did not timely
notify the Denver Category Management Center (CMC) of the conversion date. As a
result, the Postal Service made duplicate payments to two CPU suppliers totaling
$6,644.

As a result of our audit, Postal Service personnel terminated automatic payments under
the firm-fixed price contracts and initiated action to collect the duplicate payments. We
will report duplicate payments of $6,644 as recoverable questioned costs in our
Semiannual Report to Congress. Click here to go to Appendix H for our detailed
analysis of this topic.

We recommend the Vice President, Supply Management:

   3. Establish written policies and procedures to ensure timely notification to the
      Denver Category Management Center of converted Contract Postal Unit
      contracts.

Management’s Comments

Management agreed with the recommendation, including the associated monetary
benefits, and has initiated action to collect the duplicate payment. Also, to enhance
current processes, they will create a report in the CPU Technology (CPUT) system that




                                                   5
Fiscal Year 2007 Postal Service Financial Statements Audit –                   FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


shows CPUs where two invoices were generated in the same month for the same
contract number and will review this report on a monthly basis to verify that the invoices
are valid. In addition, management will establish and communicate additional written
policies and procedures to ensure timely notification of converted CPU contracts. The
target completion date for corrective action is the end of Quarter 3, FY 2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issue.

PARTIAL LAND SALES

Postal Service personnel did not always accurately record partial land sales. This
occurred because of an inadvertent error made by St. Louis IT/ASC personnel. In
addition, there was no evidence of management oversight. As a result, the general
ledger land account and the gain on the land sale account were understated by
$886,016.

As a result of our audit, St. Louis ASC personnel recorded adjustments to correct the
land and land sale accounts. In addition, the Postal Service plans to implement
additional reviews by St. Louis IT/ASC personnel for routine sales and by headquarters
personnel for more complex sales. Click here to go to Appendix I for our detailed
analysis of this topic.

We recommend the Manager, St. Louis Accounting Service Center:

   4. Reiterate to the Manager, General Accounting Branch, and applicable personnel
      the requirement to remove only the partial land cost from inventory upon closing
      partial sales.

   5. Implement a procedure requiring periodic reviews to ensure proper processing of
      routine property sales.

Management’s Comments

Management agreed with the recommendations and has implemented procedures
requiring the systems accountant to clear all real estate transactions prior to recording.
Further, for more complex, non-standard real estate transactions, the systems
accountant will consult with headquarters Accounting Policy prior to recording entries to
the general ledger. In addition, to enhance the monthly review process, the monthly
real estate transactions report shows reconciliation of accounts where sales proceeds
are deposited as well as the associated gain and/or loss on sales account.




                                                   6
Fiscal Year 2007 Postal Service Financial Statements Audit –                                   FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues.

PROJECT FINANCIAL SYSTEM UNRECORDED LIABILITY

St. Louis IT/ASC personnel did not timely complete year-end closing instruction
procedures. Specifically, at the time of our audit, they did not create a liability accrual to
record Project Financial System (PFS) payments as required by year-end closing
instructions.

PFS is designed to establish, maintain, and report all outstanding budget authorizations,
commitments, payments, and closeouts on construction and improvement projects.
PFS covers land, buildings, and mail processing equipment and related noncapital
expenses. In accordance with Postal Service policy4 and the St. Louis IT/ASC year-end
processing schedule,5 the St. Louis IT/ASC must accrue for PFS payments related to
construction or procurement projects to accommodate situations where the payment is
invoiced prior to year end but the payment is not approved until after the year end.

This occurred because St. Louis IT/ASC personnel inadvertently overlooked the
accrual. As a result, St. Louis IT/ASC personnel needed to accrue the full amount of
about $26.7 million in late October 2007. Management noted they would have identified
this oversight prior to final close of general ledger.

Click here to go to Appendix B for the adjustment to correct the accrual balance in the
general ledger.

We recommend the Manager, St. Louis Accounting Service Center:

    6. Direct branch managers to reiterate year-end closing instruction requirements
       and verify all items are completed timely.

Management’s Comments

Management agreed with the recommendation and instructed branch managers to
adhere to closing schedules and instructions. In addition, branch personnel have
recently developed more detailed closing checklists tailored to their accounting
operations to ensure all required information is entered into the accounting records in a
timely manner. Specifically, with regard to the PFS accrual, the Manager, General


4
  Postal Service Handbook F20 – General Ledger Accounting and Financial Reporting System, Chapter 7, December
2004.
5
  Accounting Service Center Year-End Processing Schedule – General Ledger – Accounting Data Mart (ADM)
Checklist – FY 2007.




                                                      7
Fiscal Year 2007 Postal Service Financial Statements Audit –                    FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


Accounting Branch (GAB), will ensure the preliminary amount is recorded per the
closing schedule.

Management also clarified the OIG’s audit comments by describing its dual close
process and advised that it is now applicable to the quarter closings in FY 2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendation and
the corrective actions should resolve the issues.

LEASEHOLD IMPROVEMENT AMORTIZATION

Postal Service personnel did not always timely resolve leasehold improvement project
exceptions. According to St. Louis IT/ASC personnel, there were no specific Postal
Service policies or procedures in place to resolve these exceptions. Further, personnel
were not adequately trained on resolving exceptions or had higher priority projects. As
a result, leasehold amounts were not reported correctly in the general ledger. Click
here to go to Appendix J for our detailed analysis of this topic.

We recommend the Vice President, Facilities:

   7. Develop and communicate policies to require appropriate personnel review and
      clear the Leasehold Amortization Calculation Exception Lists report.

   8. Train responsible personnel on resolving leasehold amortization exceptions.

Management’s Comments

Management agreed with the recommendations and will coordinate with St. Louis ASC
personnel to develop and communicate policies to ensure the review and resolution of
any issues on the Leasehold Amortization Calculation Exception Lists report. In
addition, management plans to provide training on how to resolve leasehold
amortization exceptions to headquarters Facilities personnel. In subsequent separate
correspondence, management advised they plan to complete these tasks by October 1,
2008.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
the corrective actions should resolve the issues.

Click here to go to Appendix K for details of control issues regarding manual
transportation payments, FY 2007 peak season fuel, and New York International
Service Center (ISC) inbound international mail that were not significant to the financial




                                                   8
Fiscal Year 2007 Postal Service Financial Statements Audit –                                        FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


statements, did not affect the overall adequacy of internal control, and were reported to
management through interim reports.

PROGRESS ON PRIOR YEARS’ RECOMMENDATIONS

We followed up on prior years’ recommendations related to our financial statement
audits at the St. Louis IT/ASC.

San Francisco International Service Center – Inbound International Mail6

Except for Parcel Post, including Coventry (upgraded) Parcels, inbound international
mail volumes were not always accurate, and internal controls for recording inbound
international mail at the San Francisco ISC record unit needed strengthening.
Specifically, personnel did not properly process letter class inbound international mail
documents and timely enter the information into the international web-based application.
Also, employees did not retain Express Mail® documentation as required. We
recommended management implement a procedure requiring adequate oversight to
ensure proper processing of inbound international letter class documents and
communicate the current record retention policy to San Francisco international record
unit employees.

Progress

•   Management implemented a procedure requiring adequate management oversight
    to ensure proper processing of inbound international letter class documents.
•   Management communicated the current record retention policy to San Francisco
    international record unit employees.

Audit Comment

Management’s actions taken were responsive to our recommendations and should
correct the issues identified in the finding. Accordingly, these recommendations are
considered closed.7

Facilities Management System - Windows8

Postal Service Facilities personnel continued to make enhancements to the Facilities
Management System - Windows to better control lease and capital project payment
transactions and address internal control issues identified in previous audit reports.
However, improvements were needed to strengthen controls related to login password
6
  San Francisco International Service Center – Inbound International Mail (Report Number FT-AR-07-012, dated
March 30, 2007).
7
  These recommendations were not considered significant and, therefore, do not need to be closed through the
formal closeout process.
8
  Fiscal Year 2000 Postal Service Financial Statement Audit – St. Louis Information Technology and Accounting
Service Center (Report Number FT-AR-01-009, dated March 6, 2001).




                                                        9
Fiscal Year 2007 Postal Service Financial Statements Audit –                                        FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


protection, approval codes, security enhancements, and documentation. We
recommended management implement the remaining recommended controls in the
Facilities Management System - Windows.

Progress

In December 2006, the Postal Service implemented an upgraded web-based Facilities
Management System to address weaknesses identified in previous audits.

Audit Comment

Management’s actions taken were responsive to our recommendation and should
correct the issues identified in the finding. Accordingly, these recommendations were
closed.

International Parcel Post Accruals9

Internal controls over international Parcel Post accruals needed improvement.
Specifically, the rates in the International Parcel Post Rate Master File were not always
accurate. We recommended management implement a procedure to continuously
monitor changes to the Parcel Post Rate Master File and communicate to all IAB
personnel the requirement to monitor and document management review of the monthly
accrual reports.

Progress

Beginning in FY 2006, management implemented a procedure to verify the accuracy of
rates within the Parcel Post Rate Master File on a quarterly basis and communicated
the requirements to monitor and document review of monthly accrual reports.
Additionally, personnel review monthly accruals and verify accuracy of rates on a
sample basis and document those reviews monthly.

Audit Comment

Management’s actions taken were responsive to these recommendations. Accordingly,
these recommendations can be closed.10 However, since Parcel Post rate table11
issues continued to exist during FY 2007 (Click here to go to Appendix C and here to go
to Appendix D), we will continue to monitor this area as part of our annual financial
statement audit work.



9
  International Parcel Post Accruals (Report Number FT-AR-06-007, dated December 27, 2005).
10
   These recommendations were not considered significant and, therefore, do not need to be closed through the
formal closeout process.
11
   Formerly referred to as the International Parcel Post Rate Master File.




                                                        10
Fiscal Year 2007 Postal Service Financial Statements Audit –                                          FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


J.T. Weeker (Chicago) International Service Center – Inbound International Mail12

Except for letter class mail, inbound international mail volumes were not always
accurate and internal controls for recording inbound international mail at the
J.T. Weeker (Chicago) ISC needed strengthening. Specifically, mail volumes on
manifests did not support billing and revenue data in the General Ledger for inbound
international Express Mail and Parcel Post. For Coventry (upgraded) Parcels, the
Postal Service did not always request missing source documents.13 In addition, the
Postal Service did not have a process in place to monitor volume data entered for
inbound international mail. We recommended management reiterate the requirement to
request missing source documents for Coventry (upgraded) Parcels and implement a
procedure to continuously monitor the reliability of inbound international mail volume
data used to support billings to include manual and scanned data.

Progress

•   Management reassigned and trained new personnel and reinforced the need to
    request missing documents.
•   To monitor the reliability of inbound international mail volume data used to support
    billings, St. Louis IBSSC personnel stated they planned to develop a computer
    program that will compare system data to data from billing documents and generate
    an exception report. This report was going to be provided to the ISCs to allow them
    to investigate differences. However, based on our follow up in FY 2007, the St.
    Louis IBSSC discontinued the development of exception reports once it was
    determined to move forward with the development of new international systems.

Audit Comment

•   Management’s actions taken regarding reiterating requirements to request missing
    documents were responsive to the finding and should correct the issue identified.
    Accordingly, that recommendation was closed.
•   We will continue to monitor management’s efforts to develop the new international
    systems, which are expected to increase the reliability of inbound international mail
    volume data as part of our annual financial statement audit work.

The OIG considers recommendations 1 and 2 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. These recommendations should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.


12
   J.T. Weeker (Chicago) International Service Center – Inbound International Mail (Report Number FT-AR-06-013,
dated March 22, 2006).
13
   Inbound international mail documents supporting weights and pieces of mail received to support billings to FPA.
These documents are filed on-site at ISCs, international exchange offices, or international records units.




                                                         11
Fiscal Year 2007 Postal Service Financial Statements Audit –               FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


We will report CPU duplicate payments of $6,644 as monetary impact, recoverable
questioned costs, in our Semiannual Report to Congress

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Lorie Nelson, Director,
Financial Reporting, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability

Attachments

cc:    H. Glen Walker
       William P. Galligan, Jr.
       Vincent H. DeVito, Jr.
       Jo Ann E. Mitchell
       Stephen J. Nickerson
       Katherine S. Banks




                                                  12
Fiscal Year 2007 Postal Service Financial Statements Audit –                                              FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                            APPENDIX A. ADDITIONAL INFORMATION

BACKGROUND

The St. Louis IT/ASC includes one of three ASCs Postal Service-wide.14 It is
responsible for accounting functions related to money orders, real property,
transportation, international mail, and accounts payable.15 The St. Louis IT/ASC is also
responsible for processing financial and accountability data from field units.

We will be issuing separate financial statement audit reports for headquarters and the
Eagan and the San Mateo IT/ASCs. Further, in addition to the overall opinion on the
Postal Service’s financial statements, the Board of Governors’ independent public
accounting firm, contracted to express an opinion on the financial statements, will issue
separate reports on the Postal Service’s internal controls and compliance with laws and
regulations. The OIG will also issue a separate report for the audit of the FY 2007
information system controls at the Eagan, Minnesota; San Mateo, California; and St.
Louis, Missouri IT/ASCs and the Raleigh, North Carolina, Information Technology
Service Center.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of the audit were to determine whether:

     •   Financial accounting policies and procedures provide for an adequate internal
         control structure and comply with accounting principles generally accepted in the
         U.S.
     •   Accounting transactions at the St. Louis IT/ASC impacting the general ledger
         account balances for assets, liabilities, equity, income and expenses of the
         Postal Service are fairly stated in accordance with accounting principles
         generally accepted in the U.S.
     •   General ledger account balances conform to the general classification of
         accounts of the Postal Service on a basis consistent with that of the previous
         year.
     •   The Postal Service complies with laws and regulations that have a material and
         direct effect on the financial statements as a whole.

To accomplish our objectives, we conducted fieldwork from November 2006 through
January 2008. As part of our audit, we assessed internal controls, tested transactions,
and verified account balances. We conducted this audit from November 2006 through
March 2008 in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to limit audit risk to a low level that is, in our professional
14
   Other ASCs within IT/ASCs are located in Eagan, Minnesota, and San Mateo, California.
15
   Includes accounting for rents and leases, contract stations, vehicle hire, uniform allowance, indemnity claims, tort
claims, and eTravel.




                                                           13
Fiscal Year 2007 Postal Service Financial Statements Audit –                      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


judgment, appropriate for supporting the overall audit opinion on the financial
statements. Those standards also require considering the results of previous
engagements and following up on known significant findings and recommendations that
directly relate to the objectives of the audit. An audit also includes obtaining a sufficient
understanding of internal control to plan the audit and to determine the nature, timing,
and extent of audit procedures to be performed. We supported the external auditors in
obtaining reasonable assurance about whether the financial statements are free of
material misstatement (whether caused by error or fraud). Absolute assurance is not
attainable because of the nature of audit evidence and the characteristics of fraud.
Therefore, an audit conducted in accordance with generally accepted government
auditing standards may not detect a material misstatement. However, the external
auditors and the OIG are responsible for ensuring that appropriate Postal Service
officials are aware of any significant deficiencies that come to our attention. We
discussed our observations and conclusions with management officials on February 29,
2008, and included their comments where appropriate.

We relied on computer-generated data from several Postal Service financial systems,
including the ADM, Accounts Payable Excellence, electronic Facilities Management
System (eFMS), Money Order History File, eTravel, Settlement Management
Subsystem, SAMS, the Retek Merchandising System, and TCSS. We performed
specific internal control and transaction tests on these systems’ data to include tracing
selected financial information to supporting source records. For example, we verified
that payment authorizations supported payments recorded in eFMS, and the Postal
Service applied the amounts to the appropriate general ledger accounts.




                                                  14
Fiscal Year 2007 Postal Service Financial Statements Audit –                       FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center



PRIOR AUDIT COVERAGE
                                    Report                  Final Report
       Report Title                 Number                      Date               Results
Fiscal Year 2000               FT-AR-01-009            March 6, 2001       See “Progress on
Postal Service                                                             Prior Years’
Financial Statement                                                        Recommendations”
Audit – St. Louis                                                          section in this report.
Information
Technology and
Accounting Service
Center
International Parcel           FT-AR-06-007            December 27, 2005   See “Progress on
Post Accruals                                                              Prior Years’
                                                                           Recommendations”
                                                                           section in this report.
J.T. Weeker (Chicago)          FT-AR-06-013            March 22,2006       See “Progress on
International Service                                                      Prior Years’
Center – Inbound                                                           Recommendations”
International Mail                                                         section in this report.
Fiscal Year 2006               FT-AR-07-011            March 28, 2007      We identified
Postal Service                                                             opportunities to
Financial Statement                                                        improve Postal
Audit – St. Louis                                                          Service operations
Information                                                                regarding international
Technology and                                                             mail issues related to
Accounting Service                                                         Mexico’s Parcel Post
Center                                                                     mail rate and accrual
                                                                           adjustments. Postal
                                                                           Service personnel
                                                                           implemented actions
                                                                           to address these
                                                                           issues.
San Francisco                  FT-AR-07-012            March 30, 2007      See “Progress on
International Service                                                      Prior Years’
Center – Inbound                                                           Recommendations”
International Mail                                                         section in this report.




                                                  15
Fiscal Year 2007 Postal Service Financial Statements Audit –                      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                        APPENDIX B: RECORDED ADJUSTMENTS
                                       FY 2007
                                    ($ Thousand)
                                    Debit (Credit)

                               Parcel Post Accrual Adjustment

To record adjustment to the Parcel Post accounts over-accrued from July 2006 to
March 2007.



ACCOUNT          ACCOUNT
NUMBER          DESCRIPTION          ASSETS       LIABILITIES      EQUITY   REVENUE   EXPENSE

 23240       Parcel Post Payable                        $28,306
 53262       Parcel Post Transit                                                      $(28,306)
             Charge Expense

             TOTAL                                      $28,306                       $(28,306)



                              Project Financial System Accrual

To record accrual for PFS payments processed October 1 - 23, 2007, with invoice date
of September 30, 2007, or prior.




ACCOUNT          ACCOUNT
NUMBER          DESCRIPTION          ASSETS       LIABILITIES      EQUITY   REVENUE   EXPENSE

 16125       Building-                 $17,213
             Improvements
 17111       Land-Purchases                   4

 54232       Building                                                                    $9,438
             Improvement –
             Alteration -Owned
 23455       Accounts Pay -                            $(26,655)
             Cumulative Project

             TOTAL                     $17,217         $(26,655)                         $9,438




                                                  16
Fiscal Year 2007 Postal Service Financial Statements Audit –                                           FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                          APPENDIX C. INTERNATIONAL MAIL RATES

Rates in the international rate tables were not always accurate or supported.
Specifically:

•    The Parcel Post rate table contained incorrect rates for two countries (Gibraltar and
     Saudi Arabia). In addition, the IAB could not support the rate for Taiwan.16
•    The Terminal Dues rate table contained an incorrect rate for two of the four revision
     mechanism countries (Hong Kong and Ukraine).17 In addition, for target system
     countries, the table included CY 2006 rates instead of CY 2007 rates.18
•    The Express Mail rate table contained incorrect rates for one country (Romania) out
     of 40 sampled countries. In addition, the IAB could not support the rates for two
     countries (Grenada and Vanuatu).

The exchange of parcel19 mail and letter class20 mail between countries is governed by
the UPU and bilateral agreements between FPAs. The UPU establishes Parcel Post
and Terminal Dues21 rates for each country and publishes them annually in the
International Bureau Circular.

Terminal Dues rates differ for each letter class mail category. In addition, for the letter
post mail category, rates differ between each group of countries, including target system
countries, transitional system countries,22 and revision mechanism countries. For the
target countries, part of the rate is determined by the UPU and the other part is
determined by FPAs. Express Mail rates are determined by bi-lateral agreements
between the Postal Service and FPAs.

Based on UPU circulars and bi-lateral agreements, the IAB at the St. Louis IT/ASC
updates the rates in the Parcel Post, Terminal Dues, and Express Mail rate tables in the
international web-based application. These files are used to calculate payable amounts
for outbound mail, to generate billings to foreign countries for inbound mail, and to
calculate the monthly accrual amounts.




16
   This rate was based on a bi-lateral agreement between foreign postal administrations (FPA).
17
   Revision mechanism countries have a mechanism for revising terminal dues rates. FPAs that meet certain
requirements established by the UPU may apply for the revision mechanism to get lower terminal dues rates. The
FPA must follow UPU guidelines to determine the new rate.
18
   Target system countries are primarily industrialized countries. For terminal dues purposes, the UPU classified all
countries as industrialized or developing based on gross national per capita income. Examples of industrialized
countries include France, Germany, and Great Britain.
19
   Parcel mail refers to air and surface parcels, or Parcel Post.
20
   Letter class mail includes letter post and other categories such as International Business Reply Services, printed
matter (M-bag), insured mail, and Registered Mail™.
21
   Terminal dues refers to the fee that the destination FPA charges the originated FPA for delivering its letter class
items from the destination FPA's terminal to the addressee.
22
   Transitional system countries are developing countries. Examples of developing countries include Chile, India, and
Indonesia.




                                                         17
Fiscal Year 2007 Postal Service Financial Statements Audit –                                        FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


At the time of our audit, no specific policies or procedures existed to ensure employees
enter or update rates timely; request rate documentation when not on file; or require
periodic rate reviews (except for limited review procedures for Parcel Post inbound
rates). However, to ensure accurate financial information and correctly stated billings,
the rates must be accurate and supported. Further, regarding Terminal Dues,
headquarters personnel prepared rate documentation based on incorrect terminal dues
rates published by the UPU and distributed it to the IAB to update rates.23

When rates are not accurate, the risk that financial information is misstated or billings
are incorrect increases.

Based on our audit work, IAB personnel corrected the erroneous rates identified and
informally documented high-level desk procedures regarding establishing rates, to
include a review process.




23
  For industrialized countries, the UPU published the ‘Rate per item’ and ‘Rate per kilogram’, which are used to
calculate amounts for letter mail. Headquarters personnel reviewed the UPU document, prepared the rate analysis
spreadsheet, and provided it to the IAB personnel to enter into the Terminal Dues rate file.




                                                        18
Fiscal Year 2007 Postal Service Financial Statements Audit –                                             FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                      APPENDIX D. PARCEL POST PAYABLE ACCRUAL

Internal controls over international Parcel Post accruals needed improvement.
Specifically, the Postal Service did not always use accurate volumes or rates to
calculate Parcel Post payable monthly accruals. The Parcel Post payable accrual
calculation included duplicate volume information from July 2006 until March 2007, and
rates were incorrect for 101 out of 217 countries and islands.

Although Postal Service policy does not specifically address use of accurate rates and
volumes, best practices suggest that management ensure all transactions are
completely and accurately recorded.24

As noted in Appendix C, the UPU establishes and publishes Parcel Post rates for each
country. These rates are subject to change annually. Based on UPU circulars, the
St. Louis IAB updates the Parcel Post rate table, which is used to calculate amounts
due to and from FPAs. The rate table is also used by the St. Louis IBSSC to generate
monthly reports by applying current rates to historical mail volume.25 Using those
reports, the IAB records the accruals, at the country level, into the Settlement
Management System, which are eventually posted to the general ledger.

This issue occurred because during the time of conversion to the new web-based
application,26 the IBSSC generated the monthly reports using volume data from both the
old and new data files, thereby duplicating volumes. In addition, IAB personnel did not
timely update rates in the Parcel Post rate table for CY 2007. As a result, the IAB
overstated accruals for international Parcel Post outbound mail by approximately $38.8
million from July 2006 thru March 2007.27

During the course of our audit, the IAB updated the CY 2007 rates into the Parcel Post
rate table. In addition, the IBSSC corrected the computer program used to generate the
monthly reports beginning April 2007. The IAB also recorded an adjustment of $28.3
million in June 2007 to correct the accrual balance in the general ledger. Click here to
go to Appendix B. The adjustment amount was less than the overstated accrual
amount due to routine settlement activities and related reversals that occurred from
April to June 2007. The IAB also created an accrual variance control sheet to review
reasonableness of monthly accruals in comparison to previous periods. In addition,
they assigned personnel to review and verify the monthly reports and work with IBSSC
personnel to resolve any issues.

24
   Government Accountability Office (GAO), Standards for Internal Control in the Federal Government
(GAO/AIMD-00-21.3.1, November 1999).
25
   Historical volume is volume of the same month from the prior year. Parcel Post outbound volume data includes
gross weight and piece count.
26
   Parcel Post outbound volume data used to be stored on a mainframe platform (i.e., a large computer with large
databases, generally referring to an International Business Machines (IBM) large-scale computer). In June 2006,
these files were moved to the international web-based application.
27
   The incorrect rates may not have contributed to this over-accrual. That $38.8 million represents the net effect of
duplicate volumes and rate differences.




                                                          19
Fiscal Year 2007 Postal Service Financial Statements Audit –                                              FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                APPENDIX E. HIGHWAY TRANSPORTATION EXTRA TRIPS

Internal controls over payments made to highway transportation contractors for trips in
addition to those under contract (extra trips) needed strengthening. Specifically, the
current payment process does not include validation from the destination facility.
Instead, the originating facility initiates and maintains control of the authorization and
certification forms and submits the certification forms directly to the St. Louis IT/ASC for
further processing.

Appropriate segregation of duties is achieved when one or more employees or functions
acts as a check and balance on the activities of another, such that no one individual has
control over conflicting phases of a transaction or activity. Assigning different people
responsibility for authorizing transactions, recording transactions, reconciling
information and maintaining custody of assets reduces opportunity for any one
employee to conceal errors or perpetrate fraud in the normal course of his or her
duties.28

Postal Service personnel process highway transportation transactions through the
TCSS.29 When administrative officers at origin facilities determine the need for an extra
trip, they complete Postal Service (PS) Form 5397, Contract Route Extra Trip
Authorization. The form, comprised of four copies, is authorized and signed by the
postal supervisor at the office of origin and also includes the driver’s signature. The
office of origin keeps copy 4 for its records. Office of destination personnel complete
their portion of the form to validate arrival, retain copy 3 for their files, forward copy 2 to
the driver for contractor’s records, and forward copy 1 to the administrative official at the
office of origin.30 Each month, administrative officers at the origin facilities summarize
these extra trips on PS Form 5429, Certification of Exceptional Contract Service
Performed, and submit it directly to the St. Louis IT/ASC for payment. The St. Louis
IT/ASC personnel rely on this form as verification for the trip and approval for payment.
Upon receipt, the St. Louis IT/ASC enters information from the form into TCSS for
further payment processing. Based on this process, management believes appropriate
segregation of duties exists.

However, although the office of destination retains a copy of PS Form 5397 for their
files, it is not required to validate information on PS Form 5429 prior to payment.
Therefore, the initiation of extra trips and the approval to process payment for these
trips is solely handled by the originating facility.31

28
   The Committee of Sponsoring Organizations (COSO) of the Treadway Commission guidance, Internal Control over
Financial Reporting - Guidance for Smaller Public Companies • Volume II: Guidance, dated June 2006.
29
   TCSS is an automated procurement contracting system for administering over 17,500 Postal Service highway, rail,
air and ocean mail fixed rate transportation contracts at local postal units.
30
   For round trips, office of destination personnel retain copy 3 for their files and give copies 1 and 2 to the contract
driver to accompany the mail back to the office of origin. Upon completion of the trip, the driver keeps copy 2 for the
contractor’s records and forwards copy 1 to the administrative official.
31
   Highway Contract Route (HCR), Transportation Routes Only, Terms and Conditions, Issue 4, based on the Postal
Service’s Supplying Principles and Practices (2006).




                                                           20
Fiscal Year 2007 Postal Service Financial Statements Audit –                   FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center



When validation from the destination facility is not part of the process, the Postal
Service increases its risk of unauthorized, duplicate, or fraudulent payments for extra
highway trips.




                                                  21
Fiscal Year 2007 Postal Service Financial Statements Audit –                                     FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


       APPENDIX F. TRANSPORTATION CONTRACT SUPPORT SYSTEM AND
                SURFACE AIR MANAGEMENT SYSTEM ACCESS

Xxxxx Xxxxx DNO and Xxxxxxx AMC management did not update access to
transportation systems in accordance with Postal Service policy. Specifically, five
employees formerly at the Xxxxx Xxxxx DNO and 13 employees formerly at the Xxxxxxx
AMC required revocation of access from TCSS and SAMS, respectively, due to
changes in job functions.

Postal Service personnel with access to TCSS at the DNO level can enter, manage,
and maintain highway contract payment data, and process query/report management
information from that data. Postal Service personnel with access to SAMS can assign,
reassign and repossess containers used to transport mail to Federal Express,
commercial airlines, United Parcel Service and highway routes; can cancel mail
assignment at the “Scan Where You Band;” and can query and report management
information from the assignment log.

Postal Service policy32 requires that all managers ensure access to information
resources is immediately revoked for personnel when no longer required because of
change in job responsibilities, transfer, or termination. In addition, on a semiannual
basis, managers must review access granted to personnel under their supervision to
ensure that the access is still required for personnel to perform their duties.
Management’s prompt notification to security personnel of changes in employee job
functions is an important element in protecting Postal Service information resources
from unauthorized use, modification, disclosure, or destruction.

This issue occurred because management did not perform a periodic review of access
granted to personnel under their supervision. As a result, sensitive Postal Service
computer resources were at risk of accidental or unauthorized use, modification, or
disclosure. Specifically, the integrity of highway contract route and air
transportation payments were jeopardized.

We brought these issues to management's attention, and they promptly revoked access
as appropriate.




32
  Postal Service Handbook AS-805, Information Security, Section 9-4.2.7 – Revoking Access, March 2002 (updated
with Postal Bulletin revisions through November 28, 2006).




                                                      22
Fiscal Year 2007 Postal Service Financial Statements Audit –                                        FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                           APPENDIX G. TRAVEL EXPENSE CLAIMS

Postal Service employees did not always accurately complete their expense reports in
the eTravel system. Specifically, from our judgmental sample of 80 approved expense
reports in eTravel, we identified 10 errors on nine expense reports as follows:

     •   Seven errors on six reports were for incorrect expense amounts claimed for
         hotel, telephone, and per diem expenses, totaling approximately $282.
     •   One error on one report was for incorrectly claiming driving expense instead of
         airline expense as the lower expense. The difference between driving and flying
         was $133.
     •   Two errors on two reports were for missing receipts, one for a hotel expense and
         one for a cash advance fee greater than $50.33

Postal Service employees on official business travel file expense claims using the
eTravel system. The eTravel system automates all phases of expense reporting,
including submission, approval, cost tracking, verification, and payment. After
employees create an expense report in eTravel, the local approving official reviews and
approves the report in eTravel. The employees send a hardcopy of the summary
expense report to the St. Louis ASC along with required receipts. The St. Louis ASC
scans the barcode on all hardcopy eTravel summary expense reports into the eTravel
system and also reviews certain reports for accuracy and completeness. The system
automatically sends the approved report to the accounts payable system for employee
reimbursement.

Postal Service Handbook F-15, Travel and Relocation, outlines travel reimbursement
requirements for Postal Service employees on official business travel, including:

     •   When traveling from an average-cost area to a high-cost area or vice versa, the
         per diem rate for the entire day becomes that of the final destination for the day.
     •   On the first day of the trip, employees are reimbursed 75 percent of daily per
         diem rate of the destination.
     •   If travel arrangements do not seem advantageous to the Postal Service — such
         as using a privately owned vehicle only as a personal convenience — employees
         must submit a cost comparison on the expense report and are reimbursed the
         lesser amount.
     •   Receipts are required if the cost exceeds $50.

These errors occurred because Postal Service employees did not always follow Postal
Service policies, and local officials approved eTravel expense claims in error. As a
result, Postal Service employees were reimbursed for incorrect travel expense claims
and the eTravel expense account was overstated by $415.

33
   A fee of $62.50 was charged for a large cash advance used to pay for monthly rental expense while on extended
travel detail.




                                                        23
Fiscal Year 2007 Postal Service Financial Statements Audit –               FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center



As a result of our audit, management explained overpayments to approving officials and
requested they obtain reimbursement from affected employees.




                                                  24
Fiscal Year 2007 Postal Service Financial Statements Audit –                            FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                      APPENDIX H. CONTRACT POSTAL UNIT PAYMENTS

Postal Service personnel did not always terminate CPU firm-fixed price contract
payments upon conversion to performance-based contracts.

A CPU is a supplier-owned or supplier-leased site under contract to the Postal Service
to provide postal services to the public. CPUs are usually located in retail stores or
other places of business and accept mail from the public, sell postage and Postal
Service supplies, and provide other selected services. There are over 4,100 active
CPUs nationwide operating under either firm-fixed price or performance-based
contracts.34 District retail offices prepare a CPU request package to establish CPUs
based on contract type. Contract types include firm-fixed price contracts, whereby CPU
suppliers receive a fixed monthly amount for services provided, and performance-based
contracts, whereby suppliers are paid monthly based on a percentage of sales. Since
headquarters’ goal is to move toward performance-based contracts where it makes
good business sense, district retail offices are working with CPU suppliers to convert
firm-fixed contracts to performance-based contracts. Upon receipt from the district retail
offices, the Denver CMC reviews and enters new CPU contracts, contract modifications,
and contract conversions into the Contract Postal Unit Technology (CPUT) system.
CPUT provides a file for automatic monthly payment to CPU suppliers.

This issue occurred because district retail offices did not timely notify the CMC of the
actual start date of the contract conversions. The Postal Service did not have written
policies and procedures to require timely notification of contract conversions. As a
result, two CPU suppliers received automatic payments for both contracts: one supplier
for 6 months and the other for 2 months, totaling $6,644.

During the course of our audit, the Postal Service canceled automatic payment on the
fixed price contracts and initiated action to collect the duplicate payments. We will
report the duplicate payments of $6,644 as monetary impact, recoverable questioned
costs, in our Semiannual Report to Congress as shown:




34
     The Postal Service paid approximately $79.1 million to CPU suppliers in FY 2007.




                                                           25
Fiscal Year 2007 Postal Service Financial Statements Audit –                  FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center



                               RECOVERABLE QUESTIONED COSTS


          CPU                        Calculation35                Amount         Total
           1               January 2007 (Prorated)                     $742
                           February through June 2007                $5,000
                           (5 months X $1,000)
                           Subtotal                                                  $5,742
             2             May 2007 (Prorated)                         $307
                           June 2007                                   $595
                           Subtotal                                                      902

                           TOTAL                                                     $6,644




35
     Pro-rated amount was provided by Denver CMC.




                                                    26
Fiscal Year 2007 Postal Service Financial Statements Audit –                                          FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                                APPENDIX I. PARTIAL LAND SALES

Postal Service personnel did not always accurately record partial land sales.
Specifically, in two instances, St. Louis IT/ASC personnel removed the entire dollar
amount of the land from the general ledger inventory account36 rather than the dollar
amount of the portion sold.37

Facilities Service Office (FSO) personnel are responsible for identifying the need for and
initiating disposal action on excess property. When FSO personnel accept a purchase
offer, they provide written notification to the St. Louis IT/ASC. Upon property closing,
they immediately forward the balance of the sales proceeds to the St. Louis GAB, which
makes the appropriate accounting entries in the general ledger. Postal Service policy38
requires the St. Louis IT/ASC to remove the partial land cost from inventory upon
closing of the sale.

This occurred because of an inadvertent error by St. Louis IT/ASC personnel. In
addition, there was no evidence of oversight by management. As a result, the general
ledger land account and the gain on the land sale were understated by $886,016.
Based on our audit, St. Louis GAB personnel prepared adjusting journal entries in July
2007. In addition, the Postal Service plans to implement an additional review by St.
Louis IT/ASC personnel for routine sales, and by headquarters personnel for more
complex sales.




36
   Account 17111 – USPS Owned Land.
37
   Original land values for the Cameron, Missouri, and Nashville, Tennessee, facilities were $489,197 and $686,058
respectively. Rather than a zero balance, the adjusted land values after the partial sale should have been $394,239
and $491,777.
38
   Handbook F-25, Real Property and Leasehold Improvement Accounting, dated November 1990.




                                                         27
Fiscal Year 2007 Postal Service Financial Statements Audit –                                         FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


               APPENDIX J. LEASEHOLD IMPROVEMENT AMORTIZATION

Postal Service personnel did not always timely resolve leasehold improvement project
exceptions. Twenty-four of 53 exceptions39 we examined on the October 2006
Leasehold Amortization Calculation Exception List remained on the September 2007
exception list.40

The Postal Service incurs leasehold improvement costs in order to provide additional
space or upgrade existing space in leased facilities. Leasehold improvements refer to
costs other than normal maintenance and repair expense. Leasehold improvements
costing $5,000 or more are eligible to be capitalized. St. Louis IT/ASC personnel
process journal vouchers to capitalize leasehold improvements. The Leasehold
Amortization Calculation Exception List monthly report shows all current leasehold
improvement projects that meet the $5,000 threshold but were not capitalized, and
provides the reason for the exception. According to St. Louis ASC personnel, Postal
Service Facilities Headquarters personnel are responsible for resolving exceptions to
make leasehold improvements eligible for capitalization.

The Postal Service does not have any policies and procedures in place to timely resolve
leasehold improvement project exceptions. However, Handbook F-20, General Ledger
Accounting and Financial Reporting System, requires the Postal Service to devise a
system of internal controls that will ensure the production of properly presented financial
statements. Further, management advised Facilities headquarters personnel were not
adequately trained on resolving exceptions or had higher priority projects. As a result,
leasehold improvements on the exception list were not capitalized timely, and leasehold
amounts were not reported correctly in the general ledger.




39
   We could not assess the overall value for these 24 leasehold improvements since this information was not
available on the Leasehold Amortization Calculation Exception List.
40
   Two additional exceptions remained through June 2007 but were resolved prior to September 2007.




                                                        28
Fiscal Year 2007 Postal Service Financial Statements Audit –                                     FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                                  APPENDIX K. INTERIM FINDINGS

During our audit, we identified and reported the following three issues to management
through interim reports.

Manual Transportation Payments

Although manual transportation payments were accurately recorded, they were not
always properly supported, approved, or authorized prior to payment.41 Specifically,
Transportation Portfolio CMC personnel did not always enter adequate documentation
into the Logistics Contract Management Systems (LCMS) to support manual
transportation payments. Further, Transportation Portfolio personnel approved — and
St. Louis ASC personnel authorized and released — manual transportation payments
without ensuring the documentation in LCMS supported the payments. As a result,
Transportation Portfolio CMC and St. Louis ASC personnel approved and authorized
manual transportation payments between October 1, 2006, and April 20, 2007 (totaling
$5,826,948) without ensuring that adequate supporting documentation existed.

Management agreed with our recommendations to improve the payment process and
will assess and improve current processes; ensure adequate controls are in place,
including detailing approval and authorization responsibilities; and communicate this
information to appropriate personnel.

FY 2007 Peak Season (Christmas 2006) Fuel

Postal Service personnel could not determine whether payments represented the actual
costs associated with the transportation of FY 2007 peak season (Christmas 2006)
mail.42 Specifically, they did not properly validate peak season (Christmas 2006) fuel
invoices or perform post-season reconciliations of those fuel payments. As a result, the
Postal Service paid fuel costs totaling over $22 million when actual fuel costs may have
been less. Management agreed the peak season jet fuel invoicing process could be
improved by enhancing payment-related documentation and implemented a process
change for FY 2008 contracts to require fuel suppliers and air carriers provide
supporting documentation to validate invoices.




41
     Manual Transportation Payments (Report Number FT-AR-08-01, dated November 15, 2007).
42
     Fiscal Year 2007 Peak Season (Christmas 2006) Fuel (Report Number FT-AR-08-003, dated December 14, 2007).




                                                       29
Fiscal Year 2007 Postal Service Financial Statements Audit –                                      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


New York International Service Center – Inbound International Mail

Volume data used to bill FPAs for inbound air Parcel Post mail at the New York ISC was
accurate. However, volume data used to bill FPAs for inbound Express Mail and letter
class service was not always accurate.43 As a result, we calculated that the Postal
Service underbilled foreign countries $3,425,151. In addition, if this issue had gone
undetected, we project that underbillings would have been $10,275,453 over a 2-year
period. Management agreed with all of our recommendations and plans to implement
or enhance several controls to ensure volume data used to bill FPAs for inbound
Express Mail and letter class service mail is accurate. These controls include
establishing policies and procedures for processing and billing inbound international
mail and modifying the system used to prepare inbound Express Mail data for billing.




43
  New York International Service Center – Inbound International Mail (Report Number FT-AR-08-005, dated
January 24, 2008).




                                                      30
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center


                       APPENDIX L. MANAGEMENT’S COMMENTS




                                                  31
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  32
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  33
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  34
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  35
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  36
Fiscal Year 2007 Postal Service Financial Statements Audit –      FT-AR-08-010
 St. Louis Information Technology and Accounting Service Center




                                                  37
